HHS/OIG-Audit--"Review of Unfunded Pension Costs of the Aetna Life Insurance Company, Hartford, Connecticut, (A-07-93-00679)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Unfunded Pension Costs of the Aetna Life Insurance Company,
Hartford, Connecticut," (A-07-93-00679)
May 11, 1994
Complete Text of Report is available in PDF format
(1.33 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that the Aetna Life Insurance Company had
accumulated $4.5 million in unallowable direct pension costs related to its
Medicare segment. These costs represent unfunded pension costs and imputed interest
for Plan Years 1986 through 1990. These pension costs are unallowable because
the pension costs were not funded within the required specific time periods
set by regulation. Imputed interest on the unfunded costs is also unallowable.
Regional Health Care Financing Administration officials agreed with our finding
and recommendations for corrective action.